 OFFICE OF AUDIT
 REGION 4
 ATLANTA, GA




               The Municipality of Ponce, PR

        HOME Investment Partnerships Program




2013-AT-1001                             NOVEMBER 30, 2012
                                                        Issue Date: November 30, 2012

                                                        Audit Report Number: 2013-AT-1001




TO:            José R. Rivera, Director, Community Planning and Development, San Juan Field
               Office, 4ND

               //signed//
FROM:          James D. McKay, Regional Inspector General for Audit, Atlanta Region, 4AGA

SUBJECT:       The Municipality of Ponce, PR, Did Not Always Ensure Compliance With
               HOME Investment Partnerships Program Requirements


    Attached is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of the Municipality of Ponce’s, HOME
Investment Partnerships Program.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
404-331-3369.
                                         November 30, 2012
                                         The Municipality of Ponce, PR, Did Not Always Ensure
                                         Compliance With HOME Investment Partnerships
                                         Program Requirements



Highlights
Audit Report 2013-AT-1001


 What We Audited and Why                   What We Found

As part of the U.S. Department of        The Municipality’s financial management system (1)
Housing and Urban Development            did not properly identify the source and application of
(HUD), Office of Inspector General’s     more than $3.5 million in HOME funds, (2) did not
(OIG) annual plan and based on the       support the eligibility of more than $454,000 in
large amount of funds approved, we       program charges, and (3) failed to disburse HOME
audited the Municipality of Ponce’s      funds within HUD-established timeframes. As a
HOME Investment Partnerships             result, HUD lacked assurance that funds were
Program. Our objectives were to          adequately accounted for, safeguarded, and used for
determine whether the Municipality       requested and eligible purposes and in accordance with
maintained its financial management      HOME requirements.
system in compliance with HUD
requirements and met HOME program         The Municipality disbursed more than $327,000 for an
objectives.                               activity that showed signs of slow progress without
                                          assurance that the activity would generate the intended
                                          benefits. As a result, HUD had no assurance that funds
  What We Recommend
                                          were used solely for eligible purposes and that HOME-
                                          funded activities met program objectives and fully
We recommend that HUD (1) determine provided the intended benefits.
the eligibility of more than $3.8 million
disbursed for unsupported HOME            The Municipality reported to HUD more than $2.5
program costs and an activity that        million in HOME commitments without executing a
showed signs of slow progress and (2) written agreement or identifying the property in
deobligate and put to better use more     accordance with HUD requirements. Further, it failed
than $286,000 in overstated obligations. to report more than $11,000 in program income and
                                          recaptured funds. As a result, HUD had no assurance
                                          that the Municipality met HOME program objectives,
                                          commitments, and disbursement requirements.
                            TABLE OF CONTENTS

Background and Objectives                                                         3

Results of Audit
      Finding 1: The Municipality’s Financial Management System Did Not Comply    5
                 With HUD Requirements
      Finding 2: HOME-Funded Activity Did Not Meet Program Objectives            10
      Finding 3: The Municipality Did Not Have Adequate Controls Regarding       13
                 Information Entered Into HUD’s Information System

Scope and Methodology                                                            17

Internal Controls                                                                19

Appendixes
A.    Schedule of Questioned Costs and Funds To Be Put to Better Use             21
B.    Auditee Comments and OIG’s Evaluation                                      22




                                            2
                        BACKGROUND AND OBJECTIVES

The HOME Investment Partnerships Program is authorized under Title II of the Cranston-
Gonzalez National Affordable Housing Act as amended. The U.S. Department of Housing and
Urban Development (HUD) allocates funds by formula to eligible State and local governments
for the purpose of increasing the supply of decent, safe, sanitary, and affordable housing to low-
and very low-income families. State and local governments that become participating
jurisdictions may use HOME funds to carry out multiyear housing strategies through acquisition,
rehabilitation, new housing construction, and tenant-based rental assistance.

Participating jurisdictions are required to commit HOME funds within 24 months and expend
them within 5 years after the last day of the month in which HUD notifies the participating
jurisdiction of HUD’s execution of the HOME agreement. Participating jurisdictions draw down
HOME funds through HUD’s Integrated Disbursement and Information System. 1 HUD’s
information system is also used to monitor and track HOME commitments, program income,
repayments, and recaptured funds, among other things.

The Municipality of Ponce was founded in 1692, and its governing system consists of an executive
and legislative body: a mayor and 16 members of the municipal legislature elected for four-year
terms. The municipal government provides a full range of services, including public health and
safety, urban and economic development, education, and others. The Municipality of Ponce is the
third largest local participating jurisdiction in Puerto Rico, for which HUD has approved more
than $4.4 million in HOME funds during the past 3 fiscal years. HUD’s information system
reflected expenditures exceeding $800,000 during the fiscal year ending June 30, 2011, for the
following activities:

                      Activity type                             Amount expended
                 Home-buyer assistance                                $186,100
                 Home-buyer acquisition and new                         263,304
                 construction
                 Homeowner rehabilitation                                  119,487
                 Planning and administration                               234,555
                 Total                                                    $803,446

The Municipality’s Secretariat of Housing and Socioeconomic Development is responsible for
administering HOME funds. Its books and records are maintained at 76 Cristina Street, Ponce,
PR.

We audited the Municipality’s HOME program as part of the HUD Office of Inspector General’s
(OIG) strategic plan. The Municipality was selected for review based on the amount of HUD
funding provided. The objectives of the audit were to determine whether the Municipality

1
 HUD’s Integrated Disbursement and Information System (IDIS) is the drawdown and reporting system for the four
CPD formula grant programs. The system allows grantees to request their grant funding from HUD and report on
what is accomplished with these funds.


                                                      3
maintained its financial management system in compliance with HUD requirements and met
HOME program objectives.




                                            4
                               RESULTS OF AUDIT


Finding 1: The Municipality’s Financial Management System Did Not
Comply With HUD Requirements
The Municipality’s financial management system did not properly identify the source and
application of more than $3.5 million in HOME funds and did not support the eligibility of more
than $454,000 in program charges. In addition, it failed to disburse more than $84,000 in HOME
funds within HUD-established timeframes. These deficiencies occurred because the
Municipality disregarded HUD financial requirements and instructions. As a result, HUD lacked
assurance that funds were adequately accounted for, safeguarded, and used for requested and
eligible purposes and in accordance with HOME requirements.


 Inadequate Accounting Records

              The Municipality’s accounting records did not reflect complete and accurate
              financial information on HOME program activities and did not permit the
              adequate tracing of program receipts and expenditures. Regulations at 24 CFR
              (Code of Federal Regulations) 85.20(b) require participating jurisdictions to
              maintain financial records that are accurate, current, and complete and that
              adequately identify the source and application of funds provided for assisted
              activities. However, the Municipality’s accounting records did not comply with
              HUD requirements and were not adequate for the preparation of reports. For
              example, the Municipality’s financial management system did not allow the
              tracing of expenditures by individual HOME activity; it instead commingled the
              transactions of various activities into the same account. A program official also
              indicated that to determine the expenditures associated with a HOME-funded
              activity, it would be necessary to review each activity file to determine the
              amount disbursed. The Municipality also did not properly account for capital
              assets.

              In addition, the expenditures shown in the Municipality’s general ledger for the
              fiscal years ending June 30, 2009, and 2010, and the period ending October 31,
              2011, did not agree with amounts reflected in HUD’s information system.




                                               5
                                HOME expenditures
                         Fiscal year ending June 30, 2009
                                                     HUD’s
                                     General      information
           Activity type              ledger         system          Difference
  Home-buyer - acquisition               $1,375         $40,000        ($38,625)
  and new construction
  New construction - CHDO*             $184,385              $0         $184,385
  Home-buyer - acquisition             $716,832        $627,897          $88,935
  Home-buyer - rehabilitation           $56,497         $54,747           $1,750
  Rental - acquisition and             $409,980        $395,734          $14,246
  rehabilitation
  Administration                       $140,007         $46,750              $93,257
                         Fiscal year ending June 30, 2010
  Home-buyer - acquisition              $88,060        $263,304        ($175,244)
  and new construction
  Home-buyer - acquisition             $133,100        $186,100         ($53,000)
  Homeowner - rehabilitation            $37,983        $119,487         ($81,504)
  Administration                       $133,150        $234,555        ($101,405)
                      July 1, 2010, through October 31, 2011
   Acquisition of real property        $107,408              $0          $107,408
   Home-buyer - acquisition            $116,180        $223,241        ($107,061)
   Home-buyer - acquisition                  $0         $43,161         ($43,161)
   and new construction
   Homeowner - rehabilitation                $0          $4,500          ($4,500)
   Administration                       $41,267          $6,515           $34,752
* community housing development organization

The Municipality also provided conflicting information on the total amount
disbursed for HOME-funded activities. For example, the expenditures shown in
the Municipality’s records for six activities did not agree with amounts reflected
in HUD’s information system.

   Activity       Municipality’s    HUD’s information
   number           records             system               Difference
     753                 $554,870             $529,513             $25,357
     802                 $236,670             $389,620         ($152,950)
    1013                  $88,060              $41,782             $46,278
    1151                 $101,968             $141,329           ($39,361)
    1154                  $15,882              $49,923           ($34,041)
    1158                         $0            $58,179           ($58,179)

The Municipality did not maintain a financial management system that permitted
the tracing of funds to a level which ensured that such funds had not been used in
violation of the restrictions and prohibitions of applicable statutes. As a result,


                                 6
                 HUD lacked assurance that funds were adequately accounted for, safeguarded,
                 and used for eligible purposes. The Municipality could not explain the
                 discrepancies among the accounting records. A Municipality official informed us
                 that establishing a financial management system that could provide the needed
                 information would complicate the accounting process. This is not a valid reason
                 for not meeting HUD requirements. Therefore, more than $3.5 million in HOME
                 funds drawn from HUD between July 1, 2009, and July 31, 2012, was
                 unsupported.

    Unsupported Program
    Disbursements

                 Project costs - The Municipality did not support the reasonableness and
                 allowability of more than $224,000 in HOME program funds disbursed.
                 Regulations at 24 CFR 92.206 and 92.508(a) allow disbursements for reasonable
                 and allowable costs associated with HOME-funded projects that are supported
                 with records that enable HUD to determine that HOME requirements were met. It
                 paid more than $184,000 to a community housing development organization
                 (CHDO) 2 without adequate evidence that the costs were incurred or eligible.
                 Further, the Municipality disbursed $40,000 for rehabilitation performed directly
                 by the assisted family without evidence that the costs claimed by the participant
                 were the costs paid for materials and labor. The responsible official indicated that
                 the Municipality did not verify whether the costs were incurred by the participant.

                 Administrative costs - The Municipality did not provide documentation
                 supporting the reasonableness, allowability, and allocability of more than
                 $230,000 charged to the HOME program, associated with administrative salaries.
                 Although it charged the HOME program a portion of the payroll costs associated
                 with six employees who performed additional functions not related to the
                 program, it did not maintain documentation to support the basis of the allocation
                 and the reasonableness of the costs as required by HUD. Regulations at 2 CFR
                 225, appendix B, item 8.h.(4), require that when employees work on multiple
                 activities or cost objectives, a distribution of their salaries or wages be supported
                 by personnel activity reports or equivalent documentation. The Municipality did
                 not track its employees’ time by program activity or implement a cost allocation
                 plan to distribute its payroll costs among HUD programs. Therefore, HUD lacked
                 assurance of the reasonableness, allowability, and allocability of more than
                 $230,000 in administrative payroll costs charged to the HOME program between
                 July 2010 and October 2011.




2
 A CHDO is a private nonprofit, community-based service organization whose primary purpose is to provide and
develop decent, affordable housing for the community it serves.


                                                      7
    HOME Funds Not Disbursed in
    a Timely Manner

                The Municipality failed to disburse HOME funds totaling more than $84,000
                within HUD-established timeframes.

                Program income and recaptured funds - Contrary to HUD’s regulations at 24 CFR
                92.502(c)(3), the Municipality received more than $21,000 associated with
                program income and recaptured funds that were not used before the Municipality
                made additional drawdowns from HUD. The Municipality drew down more than
                $480,000 in HOME funds from July 1, 2010, through February 9, 2011, before
                other funds in its bank account were used.

                HOME withdrawals - The Municipality withdrew from its treasury account more
                than $1 million in HOME funds between July 1, 2010, and October 31, 2011.
                Contrary to HUD’s regulations at 24 CFR 92.502(c)(2), the Municipality failed to
                disburse drawdowns totaling more than $63,000 in HOME funds within 15 days.
                The Municipality did not return more than $54,000 in unexpended drawdowns to
                HUD. Contrary to HUD’s instructions in a memorandum dated April 5, 2011, the
                drawn funds were used to pay for other expenditures 42 to 48 days after the
                original draw date. 3 Further, the Municipality did not provide evidence of the
                final disposition of more than $8,000 in funds drawn from its treasury account.
                As a result, there was no assurance that HOME funds were used for eligible
                purposes.

    Disregard for Requirements

                The Municipality disregarded HUD requirements and instructions to ensure that it
                had a financial system that met program requirements. For example, the 2009 and
                2010 independent public accountant reports disclosed deficiencies with the
                Municipality’s financial management system; however, the deficiency continued
                to exist. Further, a Municipality budget official informed us that she was aware
                that when employees work on multiple activities or cost objectives, a distribution
                of their salaries or wages must be supported by personnel activity reports or
                equivalent documentation. However, the Municipality had not implemented
                measures to ensure compliance with this HUD requirement.




3
  The HUD memorandum provided guidance to participating jurisdictions on returning funds drawn down from their
treasury account in advance or excess of need instead of revising vouchers in HUD’s information system. We
applied this criteria only to drawdowns made after April 2011.


                                                      8
    Conclusion

                   The Municipality maintained a financial management system that (1) did not
                   reflect the full history of all financial transactions, (2) did not properly identify the
                   source and application of HOME funds, (3) permitted program charges for
                   unsupported costs, and (4) did not ensure that HOME funds were disbursed within
                   HUD-established timeframes. This condition occurred because the Municipality
                   disregarded HUD requirements and instructions. As a result, HUD lacked
                   assurance that funds were used only for requested and eligible purposes. The
                   Municipality must improve its internal controls to safeguard, use, and properly
                   account for HOME program funds.

    Recommendations

                   We recommend that the Director of the San Juan Office of Community Planning
                   and Development require the Municipality to

                   1A.     Develop and implement a financial management system in accordance
                           with HUD requirements.

                   1B.     Ensure that $3,105,923 4 in HOME funds drawn from HUD between July
                           1, 2009, and July 31, 2012, are reconciled with the accounting records and
                           provide support which ensures that such funds have not been used in
                           violation of the restrictions and prohibitions of applicable statutes or
                           reimburse the HOME program from non-Federal funds.

                   1C.     Submit supporting documentation showing the eligibility, reasonableness,
                           and allocability of $454,942 charged to the HOME program for payroll
                           and project costs or reimburse the program from non-Federal funds.

                   1D.     Track its employees’ time by program activity or implement a cost
                           allocation plan to distribute its payroll costs among HUD programs, and
                           ensure that the distribution of salaries or wages is supported by personnel
                           activity reports or equivalent documentation.

                   1E.     Submit all supporting documentation showing the eligibility and propriety
                           of $8,756 drawn from its treasury account that is unaccounted or
                           reimburse the HOME program from non-Federal funds.

                   1F.     Implement internal controls to ensure that it uses funds in its local bank
                           account before withdrawing additional funds from its treasury account,
                           and drawdowns are disbursed within the HUD-established timeframes.



4
    Total drawdowns of $3,544,830 were adjusted to consider $438,907 questioned in recommendation 1C.


                                                        9
Finding 2: HOME-Funded Activity Did Not Meet Program Objectives
The Municipality disbursed more than $327,000 for an activity that showed signs of slow
progress without assurance that the activity would generate the intended benefits. This condition
occurred because the Municipality did not take appropriate monitoring measures to ensure that
its activities met HOME objectives. As a result, HUD had no assurance that funds were used
solely for eligible purposes and that HOME-funded activities met program objectives and fully
provided the intended benefits.



 Slow Progress Activity

              The Municipality disbursed more than $327,000 for an activity that reflected slow
              progress without taking appropriate monitoring measures to ensure the timely
              completion of the activity and that program objectives would be met. In October
              2001, the Municipality committed more than $1.2 million in HOME funds for
              property acquisition and the construction of nine housing units and a city street
              (Belgica Ward - phase III, IDIS #600,). Although more than $327,000 in HOME
              and Community Development Block Grant funds had been disbursed and four
              properties had been acquired, no housing units had been developed.

              More than 10 years had elapsed since HOME funds were committed for the
              project, and the intended benefits had not materialized. The four properties
              acquired were vacant, and no housing units had been built.




              Based on this condition, HUD had no assurance that this activity would fully meet
              HOME program objectives and provide the intended benefits. Therefore,




                                               10
                  $240,961 in HOME and $86,200 in Community Development Block Grant
                  disbursements was unsupported.

    Lack of Adequate Monitoring
    Procedures

                  The Municipality did not establish and implement adequate monitoring
                  procedures to ensure the timely completion of activities and that funds were used
                  in accordance with all program requirements. A Municipality official informed us
                  that there were no monitoring procedures and that except for the monitoring of a
                  CHDO, no reviews were performed to verify the progress of HOME-funded
                  activities. The last monitoring of a CHDO was performed in March 2010.

                  The Municipality’s 2011 annual action plan assigned the responsibility for
                  monitoring the HOME program to the internal auditor and the engineering
                  department. 5 However, the monitoring efforts described in the annual plan were
                  general and vague and did not schedule the monitoring of HOME-funded
                  activities, except for an unidentified CHDO.

    Conclusion

                  The Municipality did not adequately manage the Belgica Ward project to ensure
                  that it was carried out in a timely manner and that funds were used to meet
                  HOME program objectives. This condition occurred because the Municipality
                  did not take appropriate monitoring measures to ensure the timely completion of
                  the activities and that program objectives would be met. As a result, HUD had no
                  assurance that funds were used solely for eligible purposes and that HOME-
                  funded activities met program objectives and fully provided the intended benefits.

    Recommendations

                  We recommend that the Director of the San Juan Office of Community Planning
                  and Development

                  2A.      Determine the eligibility of the $327,161 disbursed for the Belgica Ward -
                           phase III project and reevaluate the feasibility of the activity. The
                           Municipality must reimburse its HOME program from non-Federal funds and
                           deobligate any committed funds that remain unexpended if HUD determines
                           the activity to have been terminated.




5
  The annual action plan provides a concise summary of the actions, activities, and the specific federal and non-
federal resources that will be used each year to address the priority needs and specific goals identified by the
grantee.


                                                         11
2B.   Require that the Municipality develop detailed monitoring procedures and
      controls for its HOME program to ensure that HUD requirements and
      objectives are met.




                              12
Finding 3: The Municipality Did Not Have Adequate Controls
Regarding Information Entered Into HUD’s Information System
The Municipality reported to HUD more than $2.5 million in HOME commitments without
executing a written agreement or identifying the property in accordance with HUD requirements,
and with inaccurate commitment dates. It also failed to report more than $11,000 in program
income and recaptured funds. These deficiencies occurred because the Municipality did not
properly monitor the accuracy of commitments and other information reported in HUD’s
information system. As a result, HUD had no assurance that the Municipality met HOME
program objectives, commitments, and disbursement requirements.


 Unsupported Commitments

              HUD’s information system reflected that the Municipality committed more than
              $1.95 million in HOME funds between July 1, 2010, and October 31, 2011. We
              examined commitments totaling more than $690,000 that the Municipality entered
              into HUD’s information system. In addition, we examined five activities with
              commitments totaling more than $2.07 million that were funded between October
              2001 and May 2010.

              The Municipality reported in HUD’s information system that it had committed
              more than $2.4 million in HOME funds, although it did not have executed
              agreements supporting the commitments as required by 24 CFR 92.2. The actual
              obligation occurred between 36 and 779 days after the commitment date.
              Therefore, the funds were improperly reported as committed and not in
              accordance with HUD requirements. A program official informed us that before
              2011, HOME projects were committed in HUD’s information system based on the
              amounts budgeted in accordance with the Municipality’s annual consolidated
              plan.

                 Activity     Reported           Initial           Actual        Days elapsed
                 number      commitment       commitment       agreement date       between
                              amount in      date in HUD’s                       reporting and
                                HUD’s         information                          agreement
                             information         system                              dates
                                system
                  1127             $29,060     Apr. 27, 2011      June 2, 2011        36
                  1127              11,688     Apr. 27, 2011     June 21, 2011        55
                  1127              15,781     Apr. 27, 2011     June 21, 2011        55
                  1127              41,913     Apr. 27, 2011    July 19, 2011*        83
                  1127              52,345     Apr. 27, 2011     July 19, 2011        83
                  1127              29,991     Apr. 27, 2011     July 19, 2011        83
                  1127              48,620     Apr. 27, 2011    July 19, 2011*        83
                  1127              48,620     Apr. 27, 2011    July 19, 2011*        83
                  1127              54,208     Apr. 27, 2011    July 19, 2011*        83


                                             13
                      1127               54,208        Apr. 27, 2011      July 19, 2011*             83
                      1127               52,904        Apr. 27, 2011       July 19, 2011             83
                      802               389,620         July 20, 2006       Nov. 8, 2006            111
                      1127               28,687        Apr. 27, 2011      Aug. 18, 2011             113
                      753               529,514        Sept. 23, 2004       July 5, 2006            650
                      600             1,101,410          Oct. 3, 2001     Nov. 21, 2003             779
                                     $2,488,569
                *Home-ownership activity without identifiable property.

                The Municipality also reported in HUD’s information system that it had
                committed more than $247,000 in HOME funds for five home-ownership
                activities, although there were no identifiable properties as shown in the above
                table. In another activity the Municipality executed an agreement and reported
                more than $38,000 as committed; however, there was no identifiable property. 6
                Regulations at 24 CFR 92.2 provide that no HOME funds can be committed for a
                rental or home-ownership project until address information is available. A
                program official informed us that grant agreements for home-ownership activities
                were executed using a preliminary assistance determination before a property had
                been identified. As a result, more than $286,000 in commitments reviewed was
                overstated and must be deobligated.

    Inaccurate Commitment Dates

                We found seven activities in which the Municipality reported in HUD’s
                information system the commitment of more than $278,000 in HOME funds
                between 14 and 441 days after the grant agreement was executed. Therefore, the
                actual commitment data was reported into HUD’s information system with
                significant delays and inaccurate commitment dates.

    Program Income and Other
    Receipts Not Properly Reported

                The Municipality failed to report in HUD’s information system program income
                and recaptured funds totaling $11,126 that were received between June and
                October 2011 as required by Chapter 13 of HUD’s information system manual. 7
                The Municipality records also showed that receipts totaling $70,834 were not
                reported in a timely manner in HUD’s information system. These HOME
                proceeds were reported to HUD between 31 and 241 days after they were
                received. Consequently, HUD had no assurance of the accuracy of the amount


6
  The home-ownership activity (number 1197) had an executed agreement; therefore, it was not included in the
above table.
7
  Program income and recaptured funds may result from the resale and recapture requirements imposed by HUD and
the Municipality on the participants to ensure affordability during predetermined periods, depending on the
assistance amount provided.


                                                     14
             that the Municipality received from such receipts and its compliance with HUD
             requirements.

Lack of Adequate Monitoring
Procedures

             The Municipality did not develop written procedures providing guidance to its
             personnel regarding the accuracy and monitoring of information reported in
             HUD’s information system, including compliance with HUD reporting
             requirements, commitment of funds, and establishing responsibility among its
             personnel. Further, the Municipality had not implemented a system for
             monitoring the accuracy of data entered into the system. Therefore, its internal
             controls were not sufficient and adequate to provide HUD assurance that
             information entered into HUD’s information system was accurate and that the
             Municipality met HOME program objectives, commitments, and disbursement
             requirements.

Conclusion

             Because the Municipality did not properly monitor, it did not ensure the accuracy
             of commitments and other information entered into HUD’s information system.
             There was no assurance that the Municipality met HUD commitment and
             disbursement requirements and that program objectives were met. The inaccurate
             data compromised the integrity of HUD’s information system and the degree of
             reliability that could be placed on the data for monitoring commitments and
             compiling national statistics on the HOME program. Management must develop
             and implement internal controls to ensure the accuracy of its reported
             accomplishments and that it complies with HUD requirements.

Recommendations

             We recommend that the Director of the San Juan Office of Community Planning
             and Development

             3A.    Require the Municipality to deobligate, reprogram, and put to better use
                    $286,502 in commitments that were overstated in HUD’s information
                    system.

             3B     Require the Municipality to reconcile its program income and recaptured
                    funds with the information entered into HUD’s information system to
                    ensure that all receipts were properly recorded.




                                             15
3C.   Reassess the Municipality’s annual commitment compliance and recapture
      any amounts that have not been committed within HUD-established
      timeframes.

3D.   Require the Municipality to establish and implement adequate controls
      and procedures to ensure the timely and accurate reporting in HUD’s
      information system of commitment and activity information and receipts
      associated with program income and recaptured funds.




                              16
                            SCOPE AND METHODOLOGY

The objectives of the audit were to determine whether the Municipality met HOME program
objectives, reported accurate and supported information in HUD’s information system, and
maintained its financial management system in compliance with HUD requirements. The
financial requirements include (1) the expenditure of HOME funds for eligible and supported
costs and (2) maintaining accounting records in accordance with HUD requirements.

To accomplish our objectives, we

    •   Reviewed applicable HUD laws, regulations, and other HUD program requirements;

    •   Reviewed the Municipality’s controls and procedures as they related to our objectives;

    •   Interviewed HUD and Municipality officials;

    •   Reviewed monitoring, independent public accountant, and HUD’s information system
        reports;

    •   Reviewed the Municipality’s files and records, including activity files and financial
        records;

    •   Traced information reported in HUD’s information system to the Municipality’s records,
        including executed agreements; and

    •   Performed site inspections of the activities.

HUD’s information system reflected that the Municipality committed more than $1.95 million in
HOME funds between July 1, 2010, and October 31, 2011. We selected for review three
activities with commitments totaling more than $694,000 (35 percent). We reviewed five
additional activities funded between October 3, 2001, and May 27, 2010, with commitments
totaling more than $2.07 million. We reviewed these eight activities to determine whether the
information reported to HUD, including commitments, was accurate and supported.

HUD’s information system reflected that the Municipality had 21 open HOME-funded activities
as of September 30, 2011. We selected and reviewed three activities for which the last draw was
more than 300 days earlier with commitments totaling more than $1.3 million. 8 We reviewed
four additional activities for which the funding date was before July 2011 with commitments
totaling more than $1.2 million. We reviewed the seven activities to determine the status of
activities for which HOME funds had been disbursed but which reflected slow progress. 9

8
  We excluded from the review two activities that were reviewed during the 2006 and 2010 HUD monitoring and a
third one that pertained to administrative costs.
9
  One of the activities reviewed also had more than $86,000 in Community Development Block Grant funds
assigned.


                                                      17
HUD’s information system reflected that the Municipality drew down from its treasury account
more than $1 million in HOME funds between July 1, 2010, and October 31, 2011. We selected
and reviewed withdrawals greater than $40,000, which resulted in six withdrawals totaling more
than $502,000 (50 percent), to determine whether HOME funds were disbursed within HUD-
established timeframes.

The Municipality’s records reflected that between July 1, 2010, and October 31, 2011, it
disbursed more than $1.18 million in HOME funds. We selected for review the largest
disbursement from the top five vendors, which resulted in five disbursements totaling more than
$335,000. We also reviewed 15 additional disbursements totaling more than $203,000 based on
the vendor and activity type. Further, we reviewed more than $235,000 in payroll and
administrative expenditures. More than $773,000 in HOME program expenditures was reviewed
to determine whether funds were used for supported and eligible efforts.

We also selected for review 37 additional disbursements totaling more than $916,000 between
August 26, 2005, and June 17, 2010, based on deficiencies noted regarding the allocability of the
charges. The disbursements were reviewed to determine whether HOME funds were used for
supported and eligible costs.

To achieve our audit objectives, we relied in part on computer-processed data contained in the
Municipality’s database and HUD’s information system. Although we did not perform a detailed
assessment of the reliability of the data, we performed a minimal level of testing and found the
data adequate for our purposes. The results of the audit apply only to the items selected and
cannot be projected to the universe or population.

The audit generally covered the period July 1, 2010, through October 31, 2011, and was
extended as needed to accomplish our objectives. We conducted our fieldwork from November
2011 through June 2012 at the Municipality’s offices in Ponce, PR.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                               18
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objectives:

               •   Program operations - Policies and procedures that management has
                   implemented to provide reasonable assurance that a program meets its
                   objectives, while considering cost effectiveness and efficiency.

               •   Relevance and reliability of information - Policies and procedures that
                   management has implemented to reasonably ensure that operational and
                   financial information used for decision making and reporting externally is
                   relevant, reliable, and fairly disclosed in reports.

               •   Compliance with laws and regulations - Policies and procedures that
                   management has implemented to reasonably ensure that program
                   implementation is consistent with laws and regulations.

               •   Safeguarding of assets - Policies and procedures that management has
                   implemented to reasonably prevent and promptly detect unauthorized
                   acquisition, use, or disposition of assets and resources.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in



                                                 19
             financial or performance information, or (3) violations of laws and regulations on a
             timely basis.

Significant Deficiencies

             Based on our review, we believe that the following items are significant deficiencies:

             •   The Municipality did not develop and implement a financial management
                 system that complied with HUD requirements (see finding 1).

             •   The Municipality did not implement adequate controls and procedures to
                 ensure that HOME activities met program objectives (see finding 2).

             •   The Municipality did not have adequate controls to ensure that accurate
                 information was reported to HUD (see finding 3).




                                              20
                                    APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

                Recommendation                                Funds to be put
                        number          Unsupported 1/        to better use 2/
                     1B                    $3,105,923
                     1C                       454,942
                     1E                         8,756
                     2A                       327,161
                     3A                    _________                $286,502
                    Total                  $3,896,782               $286,502



1/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an OIG recommendation is implemented. These amounts include
     reductions in outlays, deobligation of funds, withdrawal of interest, costs not incurred by
     implementing recommended improvements, avoidance of unnecessary expenditures
     noted in preaward reviews, and any other savings that are specifically identified. In this
     instance, if the Municipality implements recommendation 3A, funds will be available for
     other eligible activities consistent with HOME requirements.




                                             21
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         22
Comment 1




            23
Comment 1




Comment 2




            24
25
Comment 2




Comment 2




            26
27
Comment 3




Comment 4




Comment 4




            28
Comment 5




Comment 6




Comment 7




            29
Comment 7




Comment 7




            30
Comment 8




Comment 9




            31
32
                         OIG Evaluation of Auditee Comments

Comment 1   The Municipality agreed that the information in the financial reports differs from
            the information reflected in HUD’s information system. However, it claims that
            the discrepancies exist because the auditors compared the expenditures associated
            with a specific grant year, without considering that the activities had multiyear
            funding. Further, the Municipality stated that it will provide HUD all
            documentation to demonstrate that its financial management system is in
            compliance with requirements.

            Contrary to the Municipality’s statement, OIG considered in its analyses all
            expenditures recorded in the accounting records for the fiscal years ending June
            30, 2009, and 2010, and the period ending October 31, 2011, regardless of the
            program year when HUD approved the funds. The Municipality’s accounting
            records did not comply with HUD requirements and were not adequate for the
            preparation of reports. Its financial management system did not allow the tracing
            of expenditures by individual HOME activity; it instead commingled the
            transactions of various activities into the same account. The accounting
            supervisor also indicated that to determine the expenditures associated with a
            HOME-funded activity, it would be necessary to review each activity file to
            determine the amount disbursed. The Municipality also did not properly account
            for capital assets. Further, the 2009 and 2010 independent public accountant
            reports disclosed deficiencies with the Municipality’s financial management
            system; however, the deficiency continued to exist.

            The Municipality did not provide additional support that could demonstrate that
            its financial management system was in compliance with HUD requirements and
            did not provide additional documentation to clarify the discrepancies among the
            accounting records.

Comment 2   The Municipality stated that it did not agree with the OIG’s finding and believes
            that all costs were eligible HOME program expenditures. Further, it stated that it
            will provide HUD with all documentation showing the reasonability and
            allocability of the costs incurred.

Comment 3   The Municipality understands that changes are required to the existing processes
            and will undertake a revision to the program income procedures to prevent future
            recurrences. It will need to provide HUD documentation showing that adequate
            procedures were established and implemented to ensure that program income and
            recaptured funds are used before the Municipality makes additional drawdowns
            from HUD.

Comment 4   The Municipality stated that it did not agree with OIG’s finding and believes that
            the funds were properly used in accordance with 24 CFR 95.502(c)(3) since the
            funds were used for other eligible activities. In addition, the Municipality stated
            that the issue is whether the Municipality used HOME funds within 15 days of the



                                            33
            drawdown. Further, it will develop and implement procedures to prevent future
            recurrences.

            Contrary to the Municipality’s statement, it did not comply with HOME program
            requirements and HUD’s instructions. The HOME regulations at 92.502(c)(2)
            require that funds drawn from the HOME Investment Trust Fund Treasury
            account in advance of need or in excess of need must be returned to the Treasury
            account. HUD further explained this requirement in the memorandum dated April
            5, 2011, which was sent to all HOME participating jurisdictions. The review
            disclosed that the Municipality failed to return more than $54,000 in unexpended
            drawdowns as required by HUD. The Municipality also failed to mention and
            provide evidence of the final disposition of more than $8,000 in funds drawn from
            its treasury account. Therefore, we did not modify the report finding and
            recommendation.

Comment 5   The Municipality stated that it disagreed with OIG’s statement that the cause for
            not complying with financial requirements was the disregard of HUD
            requirements and instructions, and requested the removal of the statement from
            the report. The Municipality requested HUD technical assistance to implement
            the required corrective actions.

            The disregard of HUD requirements and instructions was not limited to the
            Municipality’s lack of proper accounting records. The Municipality also
            disregarded HUD requirements and instructions when it failed to disburse HOME
            funds in a timely manner and return funds requested in advance of need or in
            excess of need. In addition, a Municipality budget official was aware that HUD
            required that when employees work on multiple activities, a distribution of their
            salaries or wages must be supported by personnel activity reports or equivalent
            documentation, but did not take measures to ensure compliance with this
            requirement. Further, the 2009 and 2010 independent public accountant reports
            disclosed deficiencies with the financial management system; however, the
            deficiency continued to exist. The establishment and implementation of a
            financial management system requires immediate action by the Municipality to
            permit the proper accountability of HOME funds and ensure that funds were used
            for authorized purposes. The Municipality did not provide additional
            documentation that could substantiate its claim. Therefore, we did not modify the
            report cause of the finding.

Comment 6   The Municipality stated that it did not agree with OIG’s conclusion and believes
            that its financial management system reflected the full history of financial
            transactions. Further, it stated that the financial system properly identified the
            source and application of HOME funds and that program expenditures were
            supported. The Municipality also requested the removal of the statement from the
            report and states that the financial management system is in compliance with
            requirements.




                                            34
            As discussed in the report, the Municipality’s financial management system did
            not comply with HUD requirements. The Municipality did not provide us
            additional documentation that could substantiate its claim. Therefore, we did not
            modify the report conclusion of the finding.

Comment 7   The Municipality stated that it concurred that the Belgica III project reflected
            signs of slow progress. However, it disagreed with OIG’s statement that it did not
            take appropriate monitoring measures to ensure the timely completion of the
            project. Further, it stated that the housing project was planned in 2001 and put on
            hold until 2009 when the construction was started, and it is expected to be
            completed by the end of 2012. The Municipality recommended that the following
            text be added to the report: “For the period of 10 years the project was stalled and
            no benefit from the use of the federal funds was obtained. After the completion of
            the field work the Municipality completed the construction of the four units.” The
            Municipality also requested the removal of the first sentence of the finding and a
            revision of the recommendation because the construction was completed.

            More than 10 years had elapsed since HOME funds were committed for the
            project, and the intended benefits had not materialized. Our December 2011
            inspection showed that the properties acquired were vacant, and no housing unit
            had been built. The fact that more than 10 years had elapsed since funds were
            committed without construction being completed demonstrates a serious violation
            of HUD requirements. Contrary to the Municipality’s statement, the Belgica III
            project is not completed, and the picture that the Municipality included is not
            related to the project we questioned. The Municipality’s project engineer
            informed us that the Belgica III project was not completed and provided us recent
            photos showing that the project was unfinished. The Municipality did not provide
            us additional documentation that could substantiate its claim. Therefore, we did
            not modify the report finding and recommendation.

Comment 8   The Municipality stated that more than $286,000 was deobligated and that it had
            reprogrammed $234,381 to other eligible purposes. The Municipality will need to
            work with HUD during the audit resolution process to ensure that all funds were
            deobligated, reprogrammed, and put to better use. The Municipality did not
            provide us additional documentation that could substantiate its claim. Therefore,
            we did not modify the report finding and recommendation.


Comment 9   The Municipality stated that all program income was reported in HUD’s
            information system and provided a copy of a program income detail report as
            support. Further, it will develop and implement procedures to prevent future
            recurrences.

            The program income report does not properly demonstrate that all program
            income was reported in HUD’s information system. The Municipality will need
            to provide adequate documentation that demonstrates that it has reconciled its



                                             35
program income and recaptured funds with the information entered into HUD’s
information system. The Municipality did not provide us additional
documentation that could substantiate its claim. Therefore, we did not modify the
report finding and recommendation.




                                36
